<html>
<title> - S. 356, S. 908, AND S. 1739</title>
<body><pre>[Senate Hearing 112-626]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-626

 
                      S. 356, S. 908, AND S. 1739

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             SECOND SESSION

                                   ON

    S. 356, A BILL TO AMEND THE GRAND RONDE RESERVATION ACT TO MAKE 
             TECHNICAL CORRECTIONS, AND FOR OTHER PURPOSES

S. 908, A BILL TO PROVIDE FOR THE ADDITION OF CERTAIN REAL PROPERTY TO 
       THE RESERVATION OF THE SILETZ TRIBE IN THE STATE OF OREGON

  S. 1739, A BILL TO PROVIDE FOR THE USE AND DISTRIBUTION OF JUDGMENT 
  FUNDS AWARDED TO THE MINNESOTA CHIPPEWA TRIBE BY THE UNITED STATES 
  COURT OF FEDERAL CLAIMS IN DOCKET NUMBERS 19 AND 188, AND FOR OTHER 
                                PURPOSES

                               __________

                            FEBRUARY 2, 2012

                               __________

         Printed for the use of the Committee on Indian Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
75-372                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ea8d9a85aa899f999e828f869ac4898587c4">[email&#160;protected]</a>  


                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. AKAKA, Hawaii, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN HOEVEN, North Dakota
MARIA CANTWELL, Washington           MIKE CRAPO, Idaho
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Loretta A. Tuell, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 2, 2012.................................     1
Statement of Senator Akaka.......................................     1
    Prepared statement...........................................     1
Statement of Senator Barrasso....................................    43
Statement of Senator Franken.....................................     2
Statement of Senator Merkley.....................................     3

                               Witnesses

Deschampe, Hon. Norman W., President, Minnesota Chippewa Tribe...     4
    Prepared statement...........................................     7
Garcia, Hon. Robert, Chairman, Confederated Tribes of Coos, Lower 
  Umpqua and Siuslaw Indians.....................................    36
    Prepared statement...........................................    38
Kennedy, Hon. Cheryle, Tribal Council Chairwoman, Confederated 
  Tribes of Grand Ronde, Oregon..................................    20
    Prepared statement...........................................    22
LaRose, Hon. Arthur, Chairman, Leech Lake Band of Ojibwe.........     9
    Prepared statement...........................................    11
Pigsley, Hon. Delores, Chairman, Confederated Tribes of Siletz 
  Indians, Oregon................................................    25
    Prepared statement...........................................    27

                                Appendix

Anderson, Marge, Chief Executive, Mille Lacs Band of Ojibwe 
  Indians, prepared statement....................................    53
Black, Mike S., Director, Bureau of Indian Affairs, U.S. 
  Department of the Interior, prepared statement.................    49
Fry, Hon. Donald L., Chairman, Confederated Tribes of the Lower 
  Rogue, prepared statement......................................    59
Leecy, Hon. Kevin W., (Chairman) and David C. Morrison, Sr. 
  (Secretary-Treasurer), Bois Forte Band of Chippewa, prepared 
  statement......................................................    56
Vizenor, Hon. Erma J., Chairwoman, White Earth Tribal Nation, 
  prepared statement.............................................    57
Wilkinson, Charles, Distinguished Professor/Moses Lasky Professor 
  of Law, University of Colorado, prepared statement.............    58


                      S. 356, S. 908, AND S. 1739

                              ----------                              


                       THURSDAY, FEBRUARY 2, 2012


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 5:53 p.m. in room 
628, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. The Committee will come to order.
    Aloha, and I want to start by thanking all of you for being 
with us today and staying while the 18 votes were completed. I 
wanted to do this hearing anyway, and I am glad you are patient 
enough to be here.
    The fact that all the Tribal leaders stayed with us despite 
the long delays highlights how important these bills are to 
each of the Tribes and their members.
    For purposes of hearing from all of the witnesses in a 
timely manner, my full opening statement will be entered into 
the record. The views of the Department of the Interior will 
also be entered into the official record. I encourage any other 
interested parties to submit written comments to the Committee. 
And the hearing record will remain open for two weeks.
    I know my good friends and colleagues, Senators Franken, 
Merkley and Wyden have done a significant amount of work on 
these bills. I look forward to working with all of them as we 
move these bills through Congress.
    Again, I want to welcome Senator Merkley. Let me welcome 
also my good friend and member of the Committee Senator Al 
Franken, and ask for any comments he may have at this time.
    [The prepared statement of Senator Akaka follows:]

  Prepared Statement of Hon. Daniel K. Akaka, U.S. Senator From Hawaii

    Aloha! Today the Committee will hold a legislative hearing on three 
bills dealing with issues of great importance to the Tribes involved.
    We are all aware that prior federal policies often resulted in 
significant land and resource losses for Tribes. The bills we will 
consider today seek to restore some of those losses and make sure 
Tribes are adequately compensated for those losses and ensure Tribal 
land bases are restored.
    The first bill S. 1739, the ``Minnesota Chippewa Tribe Judgment 
Fund Distribution Act of 2011'' would distribute settlement funds to 
the Minnesota Chippewa Tribe. Senator Franken introduced this bill and 
I am certain he will have more to say about it in his opening 
statement.
    The other bills we will hear about today would streamline the land 
into trust process for two restored Oregon Tribes so they can better 
provide for the housing, education, and infrastructure needs of their 
members.
    I know that my good friends and colleagues Senators Merkley and 
Wyden have done a significant amount of work on these bills. I look 
forward to working with them and Senator Franken as we move these bills 
through Congress.

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Mr. Chairman, for holding this 
important hearing. I introduced the Minnesota Chippewa Tribe 
Judgment Fund Distribution Act with my friend and colleague 
from Minnesota, Senator Klobuchar. This legislation will 
finally allow for distribution of funds owed to the Minnesota 
Chippewa Tribe.
    It has been a long road getting to this point. The 
Minnesota Chippewa Tribe first filed a claim before the Indian 
Claims Commission in 1948. Their claims were finally settled in 
1999. For over 60 years, members of the Minesota Chippewa have 
been waiting for these funds, and it is time to get this done.
    The United States Court of Federal Claims awarded $20 
million to the Minnesota Chippewa Tribe. This money is to 
compensate Tribal members for the improper taking and sale of 
land and timber under the Nelson Act of 1889. The Federal 
Government owes the Minnesota Chippewa Tribe this money. In 
fact, in 1999, the $20 million settlement was deposited in a 
trust fund account for the Minnesota Chippewa at the Department 
of the Interior, where it has been since collecting 1 percent 
interest.
    The Tribal members in my home State of Minnesota have never 
received a dime. And that is because before any money can go to 
the Tribe, Congress must pass legislation detailing how to 
allocate the funds between the six bands that make up the 
Minnesota Chippewa Tribe. My bill does just that. It will 
provide $300 to each Tribal member and then allocates the 
remaining funds equally to each of the six bands.
    My bill reflects the distribution plan that was agreed upon 
by the Tribe through its sovereign, democratic processes. Under 
the Minnesota Chippewa Tribal constitution, the Tribe is 
governed by an executive committee. This is a democratic body 
comprised of two elected officials from each of the Tribe's 
bands.
    The Tribal executive committee voted ten to two in favor of 
this distribution plan. One band, Leech Lake, voted against. 
And its esteemed chairman, Archie LaRose, is here today to 
testify. I am sympathetic to their concerns and I sincerely 
hoped that a consensus agreement could have been reached. 
However, I deeply respect Tribal sovereignty and therefore 
believe we must respect the decision of the Tribal executive 
committee of the Minnesota Chippewa.
    I also worry that any further delay will only cause 
hardship for individual Tribal members. The thousands of Tribal 
members across Minnesota cannot afford to wait another decade. 
It is time for Congress to act to allow for the distribution of 
the funds owed to the Minnesota Chippewa Tribe.
    Thank you again, Mr. Chairman, for holding this hearing. We 
have so many members of the Tribes who have come here, and I am 
so sorry that we had all those votes in the chamber and we got 
started so late. I am sure you made mention of that at the 
beginning of this hearing. I want to thank all the witnesses 
for coming today and I look forward to your testimony.
    I thank you again, Mr. Chairman.
    The Chairman. Thank you, Senator Franken.
    Now I welcome Senator Merkley of Oregon to speak on the 
bills impacting the Siletz and Grande Ronde Tribes. Thank you 
for being patient, too, Senator Merkley. Please proceed with 
your testimony.

                STATEMENT OF HON. JEFF MERKLEY, 
                    U.S. SENATOR FROM OREGON

    Senator Merkley. Thank you very much, Mr. Chairman, for 
holding this hearing. I would also like to recognize the staff 
of the Indian Affairs Committee for their hard work on these 
issues.
    We have coming before the Committee this evening Chair 
Kennedy, the Confederated Tribes of the Grand Ronde Community, 
Chair Pigsley, of the Confederated Tribes of the Siletz Indians 
of Oregon, and Chair Garcia of the Confederated Tribes of the 
Coos, Lower Umpqua and Siuslaw Indians. I am delighted that 
they can all be here to share their thoughts directly with the 
Committee.
    I appreciate that the Committee is considering Senate Bill 
356 and Senate Bill 908, both of which I have co-sponsored. 
They address a fundamental issue facing Indian Tribes, that is, 
ensuring that Tribal communities are able to successfully 
secure their own future through the expansion of their Tribal 
reservations.
    The story of the people who comprise the Confederated 
Tribes of the Grand Ronde and the people who comprise the 
Confederated Tribes of the Siletz Indians is a difficult story 
to tell, a complicated story. But it is one that has been and 
continues to be inspiring. Like many other communities in 
Oregon and the Pacific Northwest, the bands of Indians that 
make up the two Confederated Tribes suffered through decades 
upon decades of broken treaties, failed promises and neglect on 
the part of the Federal Government. Ultimately, the Federal 
Government terminated the trust status of both Tribes.
    It was only through very hard work on the part of the 
groups themselves and some representatives in Congress that led 
to Congress restoring and reestablishing the trust relationship 
with the Tribes. And in this case, I want to particularly thank 
Senator Hatfield, who served in this body for 30 years, and I 
had the privilege of serving as an intern to him and saw how 
hard he worked on behalf of fairness and restoring the trust 
relationships.
    In the years since restoration, both Tribes have worked to 
rebuild their communities. Of course, a critical piece of 
rebuilding includes the purchase of land for the expansion of 
the reservations. Unfortunately, as this Committee knows well, 
the current process that a Tribe must follow to restore land to 
a reservation is not an easy process and has not worked well 
for these two Tribes. As the Committee will hear during 
testimony this afternoon, the current process is not only 
cumbersome and expensive for the Tribes to follow, it also will 
often take years and years for the land which is owned by the 
Tribe to be formally added and recognized as part of the 
reservation.
    I firmly believe that the two bills before this Committee 
simplify the process and should receive favorable 
consideration. I certainly look forward to reviewing the 
testimony of all the leaders who have gathered this afternoon, 
and I certainly appreciate that three leaders from Oregon can 
come to share their thoughts. I thank all of you for your 
commitment to improving the current fee to trust process and 
your participation in this evening's hearing.
    Thank you.
    The Chairman. Thank you very much. And I thank you again, 
Senator Merkley, for your participation in this hearing. Thank 
you.
    I would like to now invite the first panel to the witness 
table. Serving our first panel is the Honorable Norman 
Deschampe, President of the Minnesota Chippewa Tribe; the 
Honorable Arthur LaRose, Chairman of the Leech Lake Band of 
Ojibwe; the Honorable Cheryle Kennedy, Chairwoman of the 
Confederated Tribes of Grand Ronde Community; the Honorable 
Delores Pigsley, Chairman of the Confederated Tribes of Siletz 
Indians; and the Honorable Robert Garcia, Chairman of the 
Confederated Tribes of the Coos, Lower Umpqua and Siuslaw 
Indians.
    Welcome, everyone, and thank you so much for your patience. 
Mr. Deschampe, please proceed with your testimony.

  STATEMENT OF HON. NORMAN W. DESCHAMPE, PRESIDENT, MINNESOTA 
                         CHIPPEWA TRIBE

    Mr. Deschampe. Thank you, Chairman Akaka and members of the 
Committee. My name is Norman Deschampe, I am President of the 
Minnesota Chippewa Tribe as well as Chairman of the Grand 
Portage Band of Lake Superior Chippewa Indians.
    I am here in support of S. 1739, a bill that would provide 
for the use and distribution of the funds awarded to the 
Minnesota Chippewa Tribe in Minnesota Chippewa Tribe v. United 
States, Dockets Nos. 19 and 188, United States Court of Federal 
Claims.
    Also with me are Chairman Leecy from the Bois Forte 
Reservation, Chief Executive Marge Anderson from Mille Lacs, 
Chairman Visinor from White Earth, and Chairman Diver had to 
leave. So they are here also.
    I support S. 1739 because it provides for the distribution 
of funds being held in trust for the Minnesota Chippewa Tribe 
in the manner determined by the Tribal Executive Committee of 
the Tribe. I also support it because it is a just way to 
allocate the funds.
    Pursuant to the Revised Constitution and Bylaws of the 
Minnesota Chippewa Tribe, the governing body of the Tribe is 
the Tribal Executive Committee. The Minnesota Chippewa was a 
plaintiff in the cases known as the Nelson Act Claims. I think 
it is important for you to know that all of the decisions about 
the claims were made by the Minnesota Chippewa Tribal Executive 
Committee. The Tribal Executive Committee decided to bring the 
claims, it decided the strategy for the claims, and it also 
decided to settle the claims. And when we needed money to 
pursue the claims, it was the Tribal Executive Committee that 
borrowed the money to make that possible.
    In 1999, the Tribal Executive Committee approved the 
settlement by resolution and again in 1999 the Tribal Executive 
Committee decided to allocate the funds on an equal basis to 
each of the six member reservations. We decided on equal shares 
because each of the Bands had loaned the same amount to the 
Tribe to support the claims effort.
    For years, we have not succeeded in getting the funds 
released. Following a hearing in the House of Representatives 
in 2008 and an apparent stalemate, the Tribal Executive 
Committee once again considered different ways to allocate the 
award. And in October 2009, a resolution approving a new 
distribution plan was enacted. The distribution plan in that 
resolution is reflected in S. 1739 and it effectively provides 
more to the bands with greater populations through the per 
capita payments to members. I believe that the compromise 
adopted by the Tribal Executive Committee should become law so 
that we can finally get the benefit of what was awarded in 
1999.
    The Minnesota Chippewa Tribe appreciate Senator Franken's 
assistance in this matter. He understands that the constitution 
of the Tribe established a governmental structure that 
authorizes the Tribal Executive Committee to make decisions 
that affect the Tribe as a whole. Our constitution specifically 
gives the Tribal Executive Committee authority to allocate 
funds belonging to the Tribe. Article V, Section 1(d) of our 
Constitution provides that the Tribal Executive Committee has 
the power to administer any funds within the control of the 
Tribe and to apportion all funds within its control to the 
various reservations. That is what these fund are, they are 
Tribal funds, and they have been Tribal funds since 1999 when 
they were deposited into a trust account for the Tribe.
    Senator Franken's bill also recognizes that the beneficiary 
of the claims award is the Minnesota Chippewa Tribe. The bill 
acknowledges what the Tribal Executive Committee knew from the 
very beginning, that we were going to bring the claim as the 
Minnesota Chippewa Tribe and that we would decide how to 
allocate any recovery.
    We need these funds released now. It has been too long and 
our members are constantly asking about the Nelson Act claims. 
In addition, a small part of the distribution plan in S. 1739 
is that the Tribal government can be reimbursed the expenses it 
has incurred. This is important, because the Tribe has carried 
that amount on its books and the result has been a negative 
balance on our account. Our auditors have made it an issue and 
we have had to borrow to stay above water. Perhaps the Federal 
Government can do that, but we cannot. Just two weeks ago, the 
Tribe was denied a $25,000 grant for a program for elders 
because of that audit issue. As I said, it is time to get these 
fund distributed.
    Finally, I want you to know that the Tribal leadership has 
carefully considered Leech Lake's argument that it should 
receive 68.9 percent of the award because it suffered that 
amount of the damages. Chairman Goggleye made that argument in 
his testimony before the House Resources Committee on June 5, 
2008, and Chairman LaRose has made that same argument time 
after time before the Tribal Executive Committee. The problem 
with that argument is that it is based only on speculation and 
not on any court findings. My written testimony explains the 
problems with Leech Lake's claim in full detail, but I want to 
make it clear that over nearly 20 years, the Tribe has 
considered all arguments about what is fair, and the result is 
the formula in Senator Franken's bill.
    Our Senators understand that this is a Tribal fund that 
must be allocated in deference to the Tribal government's 
decision. I urge you to join them and pass this bill. Thank 
you.
    [The prepared statement of Mr. Deschampe follows:]

 Prepared Statement of Hon. Norman W. Deschampe, President, Minnesota 
                             Chippewa Tribe

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        *Attachments retained in Committee files*

    The Chairman. Thank you very much.
    Let me call on Chairman LaRose for your testimony. Please 
proceed.

 STATEMENT OF HON. ARTHUR LaROSE, CHAIRMAN, LEECH LAKE BAND OF 
                             OJIBWE

    Mr. LaRose. Good afternoon, Chairman Akaka and Senator 
Franken. My name is Archie LaRose, I am the Leech Lake 
Reservation Chairman.
    On behalf of my people watching and listening at home, I 
want to thank you for giving me this opportunity. You have 
heard some history behind the settlement. I am here to tell the 
rest of the story. Leech Lake suffered 68.9 percent of the 
damages. S. 1739 does not reflect the harm done to my people. 
That is why we strongly oppose the bill.
    The story starts with the establishment of the Leech Lake 
Reservation. My ancestors entered into a series of treaties and 
executive orders from 1855 to 1874. These treaties promised 
that the reservation would be our permanent home lands forever. 
Back in 1874, our closed reservation consisted of 640,000 
acres. We owned it all. Under the Nelson Act, our reservation 
was cut to less than 40,000 acres.
    According to the map there, this map compares our treaty 
reservation with our reservation today. Our current trust lands 
are highlighted in red. You can barely see them. They total 
less than 30,000 acres. This gives you an idea of the damages 
the Nelson Act inflicted on our reservation.
    I am here today more than a century later to ask the 
Committee to right this wrong and not compound our problem 
under this bill. The bill directs the Secretary to distribute 
the settlement fund based on a proposal by the Minnesota 
Chippewa Tribe. It does not honor sovereignty; it ignores 
fairness; and it only satisfies the four smaller bands.
    Congress passed the Indian Tribal Judgment Funds Act to set 
up an administrative process when there is a disagreement in 
the distribution of settlement funds. The Act takes politics 
out of the equation. This is a court settlement. But unless we 
know who was harmed, Congress is giving settlement funds that 
belong to one Tribe to other Tribes. The BIA did its job under 
the Judgment Fund Act. The BIA studied the case and in 2001, 
found that there is no compelling reason to give preferential 
treatment to the four smaller bands. The four smaller bands 
control the MCT. And they want to collect payment for harm 
suffered by Leech Lake.
    The MCT hired an expert to justify the settlement amount. 
The expert found that Leech Lake suffered 68.9 percent of the 
damages. The amounts of damages for other bands ranged from 1 
percent to 12 percent.
    In 1999, the MCT used this report to advance the 
settlement. MCT now wants to sweep it under the rug. The DOJ 
also filed a property list with the court that the settlement 
is based on. This list shows that most lands from the 
settlement came from the Leech Lake reservation to form the 
Chippewa National Forest. In 1999, the court based the 
settlement on damages. Unfortunately, damages are not even 
considered in the bill before the Committee today.
    Instead of asking who was harmed, the bill looks to an MCT 
resolution that would give bands who suffered as little as 0.9 
percent damages the same share as Leech Lake, who suffered 68.9 
percent of the damages. In addition, Grand Portage, Fond du 
Lac, and Bois Forte relinquished all claims to our lands 
involved in this settlement in the 1854 treaty. Our reservation 
was established long before the MCT was even formed. None of 
our treaty rights were delegated to the MCT. Likewise, the 
Nelson Act and the damages inflicted occurred long before the 
MCT existed.
    Federal courts have also ruled that the MCT acts only in a 
representative capacity. The MCT is not a beneficiary. They 
have no treaties. Federal courts in at least 25 other Nelson 
Act claims made awards to the individual bands based on which 
of the treaty bands had a legal treaty right to the settlement 
funds.
    If Congress is going to ignore the Judgment Funds Act, it 
should at least look to those cases. After 25 courts issued 
judgments based on damages, it makes no sense to now ignore 
damages. We have been trying to negotiate a fair distribution. 
However, if this bill is enacted without a compromise, we will 
bring a lawsuit to stop this unjust distribution. This bill 
doesn't meet judicial scrutiny. It gives the property of Leech 
Lake to the other bands. This clearly violates your 
constitutional responsibilities to protect our Tribal property 
and treaty rights.
    The bill disrespects Leech Lake's sovereignty. It compounds 
the injustice done to our treaties, our lands, and our people. 
In our view, a consensus position is the only way to resolve 
this.
    Thank you for this opportunity. Mii-gwich.
    [The prepared statement of Mr. LaRose follows:]

Prepared Statement of Hon. Arthur LaRose, Chairman, Leech Lake Band of 
                                 Ojibwe

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        *Attachments retained in Committee files*

    The Chairman. Thank you very much, Chairman LaRose.
    Chairwoman Kennedy, would you please proceed with your 
testimony?

 STATEMENT OF HON. CHERYLE KENNEDY, TRIBAL COUNCIL CHAIRWOMAN, 
           CONFEDERATED TRIBES OF GRAND RONDE, OREGON

    Ms. Kennedy. Thank you Chairman Akaka, Senator Franken.
    My name is Cheryle Kennedy, I am the Tribal Chairwoman of 
the Confederated Tribes of Grand Ronde in Oregon. I appreciate 
your time and for affording me the ability to testify on S. 
356, a bill to amend the Grand Ronde Reservation Act, to make 
technical corrections and S. 908, a bill to provide for the 
addition of certain real properties to the reservation of the 
Siletz Tribe in Oregon.
    S. 356, Grand Ronde, is a common sense approach to 
streamlining the BIA process for putting land into trust. As 
Senator Merkley articulated, the Tribes of Oregon suffered 
great injustices, including termination, which took all of our 
land holdings. That is the basis for our testimony here.
    In 1983, we were restored, and in 1988, the Tribe pursued 
the goal of securing its sovereignty by acquiring additional 
parcels of its original reservation and providing on-
reservation jobs and services to Tribal members. Today the 
Tribe owns a total of 12,500 acres, in various lands of either 
some in reservation status or fee or that are in the pile to go 
to be approved for in trust status.
    The Tribe is hampered in its effort to restore land within 
its original reservation by a lengthy and cumbersome Bureau of 
Indian Affairs process. The lands that we are talking about 
here are treated as off-reservation designation, even though 
the lands that we purchased are across from our reservation. It 
means that we go through a more rigorous process of scrutiny, 
of filing plans, and then after even that process is through by 
the BIA, we then have to come back here to Congress to amend 
our Grand Ronde Restoration Act to include those lands into our 
reservation land bases.
    In order to make both the fee in trust to trust and 
reservation designation process less cumbersome, Senator 
Merkley and Senator Wyden introduced S. 356, which would 
establish real property located within the boundaries of the 
Tribe's original reservation. They shall be treated as on-
reservation land, a very important point, for the purpose of 
processing acquisitions of real property into trust, and deemed 
a part of the Tribe's reservation once taken into trust, 
establish that the Tribe's land held in trust on the date of 
the legislation would automatically become part of the Tribe's 
reservation and correct technical errors in the legal 
descriptions of the parcels included in the Reservation Act.
    House companion legislation, H.R. 726, was introduced by 
Representative Kurt Schrader, Representative Bluemenauer and 
Representative DeFazio. Both S. 356 and H.R. 726 have the 
unanimous support of Polk and Yamhill County Commissioners, the 
two counties affected by this bill.
    In order to streamline this, it would save the Tribe a lot 
of resources and funds. It would also eliminate a lot of the 
time that the Bureau has to spend in processing these 
applications, and of course, the Congressional time for when we 
come back here to change our reservation bill.
    Senate 908, the Siletz legislation, is materially different 
from our bill, to amend the Grand Ronde Reservation. And this 
would significantly infringe on the rights of Grand Ronde and 
other Tribes in western Oregon. S. 908 does nothing to 
streamline or improve the process by which lands are taken into 
trust or given reservation status. In fact, it does the 
opposite. It is precedent-setting and is not good Indian 
policy.
    We support the Siletz' objective of taking land into trust 
in Lincoln County as contained in the Siletz Indian Tribe 
Restoration Act, but not rewriting history to expand the Siletz 
Reservation. I urge the Committee not to proceed with further 
consideration unless these issues are remedied. We do support 
the effort that other Tribes have made in making sure that the 
land into trust process goes well and is streamlined.
    I thank you and I thank my people for putting together and 
standing behind us as we present this bill, in all due respect 
to the Siletz Tribe.
    [The prepared statement of Ms. Kennedy follows:]

Prepared Statement of Hon. Cheryle Kennedy, Tribal Council Chairwoman, 
              Confederated Tribes of Grand Ronde, Oregon 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        *Attachments retained in Committee files*

    The Chairman. Thank you very much, Chairwoman Kennedy.
    Ms. Pigsley, will you please proceed with your testimony?

   STATEMENT OF HON. DELORES PIGSLEY, CHAIRMAN, CONFEDERATED 
                TRIBES OF SILETZ INDIANS, OREGON

    Ms. Pigsley. Yes, thank you. My name is Delores Pigsley and 
I am the Chairman of the Confederated Tribes of Siletz Indians 
in Oregon. I too want to thank the Committee for allowing me to 
testify today in support of S. 908, legislation to designate 
the original 1855 Siletz Reservation as on-reservation for 
purposes of processing our Tribe's fee to trust applications.
    I also want to thank Senators Wyden and Merkley for 
sponsoring this important legislation. This bill has been a 
long time in coming and is sorely needed by the Siletz Tribe to 
fully achieve the restoration that was started in 1977. We have 
submitted written testimony and exhibits, which we ask be made 
part of the record.
    The Siletz Tribe, for 200 years, has survived every 
negative policy thrown at it by the Federal Government. The 
Tribe's history is set out in great detail in Professor Charles 
Wilkinson's recent history of the Siletz Tribe, called The 
People Are Dancing Again. The Tribe is not one single historic 
Tribe; rather, it is a confederation of approximately 30 Tribes 
and bands of Indians covering all of western Oregon. We were 
thrown together under a Federal policy in the 1850s to combine 
as many Tribes as possible on one Reservation.
    The Tribes and bands that make up the Siletz ceded 
approximately 22 million acres in a series of ratified and non-
ratified treaties, and were moved to a 1.1 million acre 
reservation that stretched over 100 miles along the Oregon 
coast. We have a map to show you what it looks like. All of the 
30 Tribes and bands were moved to the Siletz Reservation by the 
Federal Government. The reservation was slowly taken away by 
executive order, by statute, the Allotment Act, and finally by 
termination in 1954, until the Tribe was left with nothing.
    The Siletz Tribe was restored to Federal recognition by 
Congress in 1977, the second Tribe in the Nation, but without 
any land base. A reservation bill was ultimately passed by 
Congress in 1980 establishing a Siletz reservation. The 
reservation that was established was a modest 3,600 acres of 
scattered timber lands, designed to support Tribal government, 
a Tribal cemetery, and pow-wow grounds. Since that time, the 
Tribe has added more than 800 acres in trust. The Tribe has 
purchased land that were once allotments and tried to build a 
land base.
    The need for additional land is still great. The modest 
amount of land the Tribe has acquired in trust has not met even 
our most modest needs. The fee to trust process has been 
completely frustrating for the Siletz Tribe and has taken years 
to acquire land in trust. And the Tribe has currently seven fee 
to trust requests that have been pending for several years.
    Because the Tribe's restored lands consists of 52 scattered 
parcels of trust land without an exterior reservation boundary, 
the Bureau of Indian Affairs reviews all of our trust 
applications under the more restrictive and difficult off-
reservation criteria. The Tribe has to prove a higher 
justification for taking land into trust, and go through 
additional procedural hoops, even for land that is adjacent to 
our reservation.
    S. 908 will place the Tribe in the same position as other 
Tribes with regard to fee to trust requests as Tribes with 
existing reservations and exterior boundaries. It does not 
create a reservation. It does not establish Siletz Tribal 
jurisdiction over the area, and it does not affect the rights 
of any other Tribe.
    The first issue that we had discussed with this legislation 
many, many years ago was to be able to act like any other 
Tribe. Because we are a restored Tribe that wasn't possible. 
And with the taking of all of our land and trying to get it 
restored under a simple process, it is just not there. And we 
wanted also to respond to issues in our bill that the Bureau 
and other Tribes have taken issue to, which is the issue with 
the county provision. It was a provision that Lincoln County 
wanted to have in the bill. We suggested it would not likely 
pass, and actually, we would like to have that provision 
removed from the bill.
    We also wanted to briefly respond to statements that are on 
the record with regard to the Coos Tribe, Lower Umpqua and 
Siuslaw, to talk about the removal of those Tribes to the 
Siletz Reservation. We have many members on our reservation who 
are descendants of these three Tribes. The modern day Coos 
Tribe is comprised of off-reservation Coos, Lower Umpqua and 
Siuslaw Indians who either never moved to the Siletz 
Reservation or who individually left the Siletz Reservation. 
They renounced any connection to the reservation. Federal case 
law clearly rejects their claims to anything on the Siletz 
Reservation.
    Secondly, the Grand Ronde Tribe's claim to the Siletz 
coastward reservation were made and rejected in several court 
claims. They have no legal basis and are contrary to existing 
Federal law. The Grand Ronde Tribe is the Indian Tribe 
recognized by the Federal Government with authority over the 
Grand Ronde Reservation. They were never part of the Siletz 
Reservation.
    The Grand Ronde Tribe Restoration Act says specifically 
that their Tribe is comprised of Indians from the Willamette 
Valley who were settled on the Grand Ronde Reservation. There 
is no mention of the Siletz Coast Reservation or any claim of 
the Grand Ronde Tribe to the Siletz Coast Reservation and it 
doesn't appear anywhere in history.
    We support, very much support a Carcieri fix. I know that 
has been discussed by many Tribes across the Nation, a fix to 
legislation that settles who is an Indian Tribe and what Tribe 
has a right to take land into trust. And how that gets fixed we 
don't know. But we know, Senator Akaka, that you have worked 
toward a fix, and we truly support your efforts. We have sent 
letters in support of your efforts.
    That concludes my testimony.
    [The prepared statement of Ms. Pigsley follows:]

  Prepared Statement of Hon. Delores Pigsley, Chairman, Confederated 
                    Tribes of Siletz Indians, Oregon

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        *Attachments retained in Committee files*

    The Chairman. Thank you very much, Chairman Pigsley.
    Chairman Garcia, please proceed with your testimony.

          STATEMENT OF HON. ROBERT GARCIA, CHAIRMAN, 
 CONFEDERATED TRIBES OF COOS, LOWER UMPQUA AND SIUSLAW INDIANS

    Mr. Garcia. Thank you very much, Chairman Akaka, members of 
the Committee. My name is Robert Garcia. I am an enrolled 
member and Chairman of the Confederated Tribes of Coos, Lower 
Umpqua and Siuslaw Indians.
    I appreciate the opportunity to be here. We support helping 
Tribes getting land into trust for a variety of purposes. It is 
a goal we share. Unfortunately, we cannot support Senate Bill 
908 as introduced. This bill gives unfair advantage to one 
Tribe over others with similar claims to the land.
    But before turning to our specific concerns, I want to 
provide the Committee with some relevant history. The Coos, 
Lower Umpqua and Siuslaw live on approximately 1.6 million 
acres of our ancestral lands outlined by the blue boundary on 
our maps with our written testimony. Members of the Coos and 
Lower Umpqua Tribes were forcibly removed in 1860 from our 
ancestral lands, moved north to the reservation established by 
executive order by President Pierced in the fall of 1855. The 
boundaries of that reservation are outlined in red on the 
submitted map.
    The solid yellow region on the map is the area of overlap 
between the reservation established by President Pierce and our 
ancestral lands. While the Coos and Lower Umpqua were forcibly 
removed to the reservation, the Siuslaw Indians remained in 
their homeland. Indeed, we believe the 1855 Coast Reservation 
referred to in S. 908 might as accurately be called the Siuslaw 
Coast Reservation as it can be called the Siletz Coast 
Reservation.
    Our existence has been acknowledged by the Federal 
Government at least since the summer of 1855, when Joel Palmer 
negotiated on behalf of the United States the Empire Treaty 
with our Tribes and others. Neither the reservation referred to 
in the Empire Treaty nor the reservation referred to in Senate 
Bill 908 were established by ratified treaty. The Coast 
Reservation is shared by many Tribes, including ourselves and 
the Siletz.
    The United States terminated our Tribe in 1954, and we were 
restored in 1984 by the Coos, Lower Umpqua and Siuslaw 
Restoration Act. We have since established a casino, Three 
Rivers Casino, and built Tribal housing near Florence near the 
heart of our Siuslaw lands, while our Tribal headquarters is 
based in Coos Bay, situated in our Coos territories. Today we 
provide approximately 600 jobs for Indians and non-Indians 
alike.
    We support Senators Wyden and Merkley for introducing S. 
356 and S. 908. They understand the emotive and tangible 
connection between Native peoples and our aboriginal lands. 
Indeed, we have our own aspirations for acquiring more 
homelands. While we have no concerns about S. 356, we support 
it and applaud the delegation for helping the Tribe secure its 
land aspiration in a targeted way that avoids impinging on the 
interests of other Tribes.
    We object to Senate Bill 908. We do not agree that the 
Siletz Tribe is the successor Tribe to the Oregon Coast 
Reservation. And we believe that S. 908 has fairness and equity 
problems. We are going to leave the county government issue to 
others and move on. But under S. 908, the Siletz, and only the 
Siletz, are entitled to have treated as an on-reservation 
acquisition all property they propose for trust within the 
800,000 Coast reservation. To give the Siletz favorable 
treatment with respect to all of this land is unsupported by 
law, is historically inaccurate and is just plain unfair to my 
people.
    Siletz currently have on-reservation status for lands 
within the reservation established as a result of the 
restoration in Lincoln County. S. 908 expands that reservation 
status to 800,000 acres of the Coast Reservation, a reservation 
we feel is shared by many Tribes. But only gives reservation 
status on those lands for the Siletz. Our Tribe has a casino, 
Three Rivers Casino, as previously mentioned, in Florence, 
Oregon, centered in our Siuslaw lands. Under S. 908, our casino 
would be in the midst of their reservation. If we buy land for 
housing Tribal members in our Siuslaw lands, it would be 
considered on the Siletz reservation.
    The Siletz and we have both intended to purchase property 
for timber. Suppose both Tribes of the adjacent lands wish to 
place them in trust. If S. 908 becomes law, the Siletz would be 
free of the obligation to satisfy the Secretary's escalated 
scrutiny for acquisition far distant from the Tribe's 
headquarters. If the acquisition were proposed for business 
purposes, the Siletz would not be required to provide the 
Secretary with a business plan to show the anticipated economic 
benefits of the proposed use. Finally, the Siletz acquisition 
would be processed within 30 days and without notice to the 
State and local government.
    In contrast, our application for adjacent parcels would be 
subject to exacting scrutiny by the Secretary. We would be 
required to write a business plan and we would then be required 
to give notice and allow for comment by State and local 
governments. This distinction is not justified by history or by 
law. It is inherently unfair.
    The complex history of Tribes on the Oregon Coast 
demonstrates that it would be an error to jump to the 
conclusion that the reservation created by President Pierce 
conveyed special status to the Siletz then, or supports today 
Congress extending such unfair advantage.
    In conclusion, I would like to paraphrase George Orwell in 
1984: S. 908 makes some Tribes more equal to others. And we do 
not believe that is fair or right.
    Thank you very much.
    [The prepared statement of Mr. Garcia follows:]

Prepared Statement of Hon. Robert Garcia, Chairman, Confederated Tribes 
               of Coos, Lower Umpqua and Siuslaw Indians

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very much, Chairman Garcia, for 
your testimony.
    I would like to call on our Vice Chairman for any remarks 
that he may have. Senator Barrasso?

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman. First 
of all, I would like to thank the witnesses for your patience 
in waiting for us to finish with the votes. I know you here 
today are here because you have a lot at stake. The bills 
involve issues of critical importance to the Tribes and they 
are issues that we need to look at very carefully. So I 
appreciate your patience, I also want to thank the staff.
    Since we do things, Mr. Chairman, in a bipartisan way, you 
know that the staffs are here late at night, both sides of the 
aisle, because of their commitment. I also want to thank 
Senator Franken for being here, and specifically you, Mr. 
Chairman, for your gracious leadership. It would have been very 
easy to have canceled this hearing.
    But you know how important these issues are and how far 
these people have traveled. But this has been the hallmark of 
your entire career in the Senate, gracious leadership, a 
wonderful gentleman. I just want to thank you for making sure 
that these people were heard and this hearing was held. So 
thank you, Mr. Chairman. I have nothing else to add.
    The Chairman. Thank you very much, Senator Barrasso, for 
your remarks. I really appreciate that.
    I would like to hold my question, and I am going to ask 
Senator Franken to proceed with his questions of the Minnesota 
Tribes. Senator Franken?
    Senator Franken. Thank you, Mr. Chairman.
    This isn't an easy hearing for me. This has been a dispute 
a long time with the Minnesota Chippewa Tribe. And earlier 
today we took a picture. We have all the chairmen and 
chairwomen of all the bands here, Chairman Deschampe from Grand 
Portage, who is also the president of the MCT, and we have 
Kevin Leecy, who is here from Bois Forte, Marge Anderson from 
Mille Lacs, Karen Diver from Fond du Lac, who had to leave, 
Chairman Visinor, Erma Visinor from White Earth, and Chairman 
LaRose. And it was nice to have the picture, it really was. 
This has been a long-time dispute. And boy, I wish this had 
been unanimous. It would have made it a lot easier.
    Chairman LaRose and I met today, in the morning. And we 
talked about other conversations we have had about speaking 
from the heart. So I am speaking from the heart now, where this 
is not easy for me. Because of the lateness, Michael Black, the 
Director of the Bureau of Indian Affairs, was going to testify 
about this. But I can read from his written testimony. And I 
think he framed this pretty much exactly as I see it. He said, 
``The Department appreciates the concern of Leech Lake, with 
whom it has a government to Government relationship, and would 
prefer a unanimous agreement among the six bands of the 
Minesota Chippewa Tribe regarding the best method to distribute 
the settlement funds. Nevertheless, the recognized governing 
body of the Minnesota Chippewa Tribe has voted ten to two in 
favor of the distribution formula set forth in S. 1739. Out of 
respect for the decision of the Minnesota Chippewa Tribe, and 
in light of the need to distribute the settlement funds in an 
equitable and expeditious manner, the Department supports S. 
1739.''
    There are little excerpts of this I can read, all six bands 
equally shared the expenses and risk of prosecuting the cases 
and dockets, numbers 19 and 188. The TEC's 1998 vote to settle 
the cases for $20 million was not unanimous, as three members 
voted against the proposed settlement. The TEC's settlement 
vote, however, was respected by all the bands and the Federal 
court, which stated: ``The Tribal Executive Committee has the 
constitutional authority to enter into the proposed settlement 
on behalf of the Minnesota Chippewa Tribe.'' It says, once 
again, the Department would prefer that any distribution plan 
have the unanimous support of all the Minnesota Chippewa 
Tribes' constituent bands, and so do I.
    Nevertheless, the 1999 settlement itself was not reached 
with the unanimous consent of the Minnesota Chippewa Tribes' 
constituent bands, and the Department views S. 1739 as the most 
equitable and expeditious means to distribute the funds agreed 
upon in that settlement and to provide a small measure of 
justice to the citizens of the Minnesota Chippewa Tribe. And 
perhaps that is why this is so difficult, Mr. Chairman, because 
of those words, small measure of justice.
    The source of all this is, in my mind, the historic 
mistreatment of Indian Tribes by the Federal Government. Would 
you agree with that, Chairman LaRose?
    Mr. LaRose. I would agree that we are the biggest victims 
of this case. We suffered the majority of the damages.
    Mr. Franken. I understand. Chairman Deschampe, if Congress 
enacts the bill, S. 1739, and may I ask for a little extra 
time, Mr. Chairman? We have waited several hours for this, and 
this is of tremendous importance.
    Mr. Chairman, if Congress enacts this bill, each Tribal 
member will receive $300. Can you describe the economic 
condition of most of these recipients? Will that amount of 
money make a difference in their lives?
    Mr. Deschampe. Yes, Senator, I think it will make a huge 
difference, especially now. I don't know how long it would take 
to get the money here. But the reservations all have high 
unemployment rates. This money would go to help families pay 
heating bills, buy groceries. It is not a lot of money in most 
people's mind. But it is something. And it would go a long way 
towards helping make, for a little bit, make life better for 
some of these people.
    Senator Franken. The bill would also distribute 
approximately $2.5 million to each of the six bands. What would 
the bands be able to accomplish with these funds?
    Mr. Deschampe. I don't know. That is up to each individual 
band to make that decision. But I think we were talking 
earlier, we have been through seven elections since this was 
approved. So it would be really hard to make any kind of plans, 
when nobody really has, through the process, had any faith that 
the money was even going to be there. So that makes it real 
difficult to plan.
    But I do know the White Earth's plan was to work on three 
community centers. And that didn't happen. I don't think that 
plan is still on the books. But everybody has needs.
    Senator Franken. And let me ask you one last question. 
Chairman Deschampe, under the Minnesota Chippewa Tribe 
constitution, the Tribal Executive Committee makes decisions 
for the Tribe by majority vote, is that right?
    Mr. Deschampe. Yes, it is.
    Senator Franken. And does this way of resolving differences 
work well for the Tribe? Has it?
    Mr. Deschampe. Yes, it does. Sometimes we don't get what we 
want, every, each individual band. But our constitution 
requires us to settle issues based on a majority vote. My 
reservation is a good example of this. We voted against the 
settlement originally. But we went on to say, okay, the 
majority vote wanted to settle this case, so that is the way it 
is.
    Senator Franken. The original in 1998?
    Mr. Deschampe. Yes.
    Senator Franken. It was three against, and my understanding 
was that White Earth and Grand Portage voted to comprise those 
three, is that correct?
    Mr. Deschampe. Yes. I was chairing the meeting, so our 
other rep was the one vote that made the odd vote. And yes, we 
voted against the settlement. But majority rules.
    Senator Franken. And the majority was respected?
    Mr. Deschampe. Yes, we respected the majority's rule.
    Senator Franken. And Leech Lake voted in favor?
    Mr. Deschampe. Yes.
    Senator Franken. Okay.
    Chairman LaRose, we have discussed this today and we have 
discussed this before, and this is a complex issue. You know 
that we have looked at, through the legal documents and that my 
staff and I have come to the same conclusion as the Bureau of 
Indian Affairs. Nevertheless, I just want to tell you that I 
totally respect your point of view and that again, this is not 
an easy hearing for me. I just feel the best thing right now is 
for members living now to get them the funds. I just want to 
throw it to you to ask you to say whatever you want to say.
    Mr. LaRose. I want to thank you for that, Senator Franken. 
Our people have been waiting at least a century for our land 
back. We lost the majority of our land in this Nelson Act, 68.9 
percent of the damages happened and occurred on Leech Lake. We 
are the biggest victims and we have to live with the damages. 
That is what this hearing should be all about, is the damages 
in itself.
    And I am going to speak from the heart, how I was taught. 
Our ancestors taught us some wonderful values in life and they 
passed the values down to our Anishinabe Indian people. And 
those values are for us to be there for one another, for us to 
share and care for one another.
    And I am going to give you one example here, of Leech Lake 
Reservation and the Grand Portage Reservation. Grand Portage 
had .9 percent damage. Grand Portage has 1,400 band members 
enrolled. Grand Portage owns, or has 98 percent of their land 
in trust. And now I am going to give you Leech Lake's side: 
68.9 percent of the damage happened and occurred on Leech Lake 
reservation. We have 9,500 band members and we only own 4 
percent of our land. We are in dire need of our land, and that 
is where we are hurting.
    So I just wanted to bring that across to everyone in here, 
that we are the real victims in this whole settlement case. We 
always felt we should be fully compensated for the damages that 
occurred from this Nelson Act. Thank you.
    Senator Franken. Thank you, Mr. Chairman.
    I want to thank all the Chairs of all the bands for being 
here today. I do want to get the settlement to the members of 
the Minnesota Chippewa Tribe, to the Ojibwe. And again, I thank 
you, Chairman LaRose, I thank you, Chairman Deschampe.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Franken.
    Let me just ask one question of Chairwoman Kennedy, 
Chairwoman Pigsley, and Chairman Garcia. The Department 
testified of the need for a Carcieri fix to alleviate backlogs 
of land into trust applications at the Department of Interior. 
My question to you is, do you support a Carcieri fix? 
Chairwoman Kennedy?
    Ms. Kennedy. I believe that the issues do need to be 
resolved. I do support that Tribes have been waiting for years, 
many for years. We have also pending applications that have not 
been resolved yet, and I do believe that yes, we need to have 
an answer.
    The Chairman. Thank you. Chairman Pigsley?
    Ms. Pigsley. Yes, we support a Carcieri fix. We have sent 
supporting resolutions when a fix was, it looked like a fix 
might happen, and a fix be added to another bill. We supported 
that. And we truly support it and we believe it needs to 
happen.
    The Chairman. Chairman Garcia?
    Mr. Garcia. Chairman Akaka, we support a Carcieri fix. We 
believe that all Tribes are Carcieri-afflicted, if not 
directly, indirectly by means of the additional uncertainty in 
financial transactions. We believe it has an adverse economic 
effect on all Tribes. So I believe that the Carcieri issue is 
much broader than it may be, that more Tribes are affected by 
it than many may think.
    The Chairman. I want to thank you very much. I am going to 
submit my other questions for the record, and I know it is 
getting late. So I want to express my warm mahalo, thank you, 
to all our witnesses at today's hearing. I truly appreciate how 
important these bills are to you and look forward to continuing 
to work with you as we move these bills through the Committee.
    Because of the delay in starting the hearing, as I said, I 
won't be asking any further questions. I will submit them for 
the record, and to you for your writing on it. Are there any 
further comments?
    Senator Franken. Again, I would like to thank everybody for 
coming.
    The Chairman. Again, I thank you all so much, but I wanted 
to finish this hearing, especially to take on your testimonies, 
so that as we consider these bills, we know we have heard from 
you and know what positions you have. I can see there are some 
difficulties. And yet, we use the democratic process, and we 
call the votes as they come. So that will happen through the 
Committee, too, but at least we will have your thinking on 
these questions.
    So with that, Senator Franken and our witnesses, this 
hearing is adjourned.
    [Whereupon, at 6:50 p.m., the Committee was adjourned.]

                            A P P E N D I X

    Prepared Statement of Mike S. Black, Director, Bureau of Indian 
                Affairs, U.S. Department of the Interior

                                 S. 356

    Chairman Akaka, Vice-Chairman Barrasso, and Members of the 
Committee, my name is Mike Black, and I am the Director of the Bureau 
of Indian Affairs. Thank you for the opportunity to present the 
Administration's views on S. 356, to amend the Grand Ronde Reservation 
Act to make technical corrections, and for other purposes. The 
Department of the Interior (Department) supports S. 356.
    Taking land into trust is one of the most important functions that 
the Department undertakes on behalf of Indian tribes. Homelands are 
essential to the health, safety, and welfare of the tribal governments. 
Thus, the Department has made the restoration of tribal homelands a 
priority.
    S. 356 amends an Act to establish a reservation for the 
Confederated Tribes of the Grand Ronde Community of Oregon, Pub. L. No. 
100-425 (Sept. 9, 1988), to authorize the Secretary of the Interior to 
place in trust approximately 288 acres of real property located within 
the boundaries of the original 1857 reservation of the Confederated 
Tribes of the Grand Ronde Community of Oregon if the real property is 
conveyed or otherwise transferred to the United States by or on behalf 
of the Tribe. Furthermore, the bill provides that the Secretary is to 
treat all applications to take land into trust within the boundaries of 
the original 1857 reservation as an on-reservation trust acquisition, 
and that all real property taken into trust within those boundaries 
after September 9, 1988, are to be considered part of the Tribe's 
reservation.
    Again, the Department supports S. 356. Thank you for the 
opportunity to present testimony on S. 356. I will be happy to answer 
any questions you may have.

                                 S. 908

    Chairman Akaka, Vice-Chairman Barrasso, and Members of the 
Committee, my name is Mike Black, and I am the Director of the Bureau 
of Indian Affairs. Thank you for the opportunity to present the 
Department of the Interior's (Department) views on S. 908, a bill to 
provide for the addition of certain real property to the reservation of 
the Siletz Tribe.
    Taking land into trust is one of the most important functions that 
the Department undertakes on behalf of Indian tribes. Homelands are 
essential to the health, safety, and welfare of the tribal governments. 
Thus, this Administration has made the restoration of tribal homelands 
a priority. This Administration is committed to the restoration of 
tribal homelands, through the Department's acquisition of lands in 
trust for tribes, where appropriate. While the Department is working 
hard to live up to this commitment, we cannot support S. 908 as 
currently drafted.
    S. 908 would amend the Siletz Tribe Indian Restoration Act, 25 
U.S.C.  711e, to authorize the Secretary of the Interior to place land 
into trust for the Siletz Tribe. The lands lie within the original 1855 
Siletz Coast Reservation and are located in the counties of Benton, 
Douglas, Lane, Lincoln, Tillamook, and Yamhill, which are all located 
within the State of Oregon. S. 908 would require that such land would 
be considered and evaluated as an on-reservation acquisition under 25 
C.F.R.  151.10 and become part of the Tribe's reservation if the 
county in which the land is located submits a written approval to the 
Secretary of the Interior. If a county does not approve of land being 
considered an on-reservation acquisition under 25 C.F.R.  151.10, the 
bill provides that any real property taken into trust ``shall be 
considered and evaluated under the appropriate provisions of part 151 
of title 25, Code of Federal Regulations (or successor regulations), as 
determined by the Secretary.''
    The Department believes its regulations, at 25 C.F.R.   151.10 
and 151.11, already provide sufficient opportunities for state and 
local units of government to provide views on applications for land to 
be acquired in trust.
    Under those regulations, State and local governments are given a 30 
day period to submit written comments concerning jurisdictional 
problems and potential regulatory conflicts as well as tax impacts that 
may result from the land acquisition. In addition, state and local 
governments, as well as the general public, may submit comments related 
to environmental impacts in the review process under the National 
Environmental Policy Act (NEPA). These comments may encompass a variety 
of issues such as social and economic impacts, law enforcement 
concerns, social services, and environmental concerns. Under NEPA, many 
local governments serve as ``cooperating agencies,'' and thus 
participate very closely in the Department's NEPA review process.
    Finally, if the Department decides to acquire land in trust, it 
must publish at least 30-days notice of this decision pursuant to 25 
C.F.R.  151.12(b) prior to acquiring trust title to the land. The 30-
day notice period provides an opportunity for interested parties, 
including state and local units of government, to initiate a legal 
challenge to the proposed trust acquisition.
    The Department does not believe it is necessary to legislatively 
insert county approval of a particular tribe's fee-to-trust 
applications into our regulations governing this process. While the 
Department gives serious consideration to the views of local units of 
government in processing applications for the acquisition of land into 
trust, we must also be mindful of the unique and important role the 
Department plays in managing the relationship between the United States 
and tribal nations. The decision to acquire land in trust for a tribal 
nation must ultimately rest with the Secretary in managing that 
relationship.
    In April of this year, the United States Government Accountability 
Office (GAO) stated that the uncertainty in acquiring land in trust for 
tribes, as a result of the Carcieri decision, is a barrier to economic 
development in Indian Country. The GAO predicted that, until the 
uncertainty created by the Carcieri decision is resolved, Indian tribes 
would be asking Congress for tribe-specific legislation to take land in 
trust, rather than submitting fee-to-trust applications to the 
Department.
    As evidenced by S. 908, this prediction is coming to fruition, and 
Indian tribes are asking their Members of Congress for tribe-specific 
legislation to take land in trust. This will lead to a patchwork of 
laws governing the land into trust process, rather than the uniform 
process that Congress envisioned in enacting the Indian Reorganization 
Act in 1934. Such a patchwork would be difficult for the Department to 
administer.
    The Department opposes S. 908 as introduced, but could support the 
bill if the provisions regarding county approval are removed from the 
bill. Thank you for the opportunity to present the Department's views 
on this legislation. I will be happy to answer any questions you may 
have.

                                S. 1739

    Good afternoon, Chairman Akaka, Vice-Chairman Barrasso, and Members 
of the Committee. I am pleased to be here today to testify on S. 1739, 
Minnesota Chippewa Tribe Judgment Fund Distribution Act. The bill is 
intended to provide for the distribution of funds owed to the Minnesota 
Chippewa Tribe by order of the United States Court of Federal Claims in 
Docket Nos. 19 and 188. The Department appreciates the effort by the 
Tribal Executive Committee of the Minnesota Chippewa Tribe to resolve 
their differences through negotiation and to reach agreement on a 
distribution plan. However, the Department acknowledges that the 
distribution formula set forth in S. 1739 does not have the unanimous 
support of the Minnesota Chippewa Tribe six member bands as the Leech 
Lake Band of Ojibwe (Leech Lake) has expressed its opposition to the 
distribution plan. The Department supports S. 1739 because it respects 
the decisions of the governing body of the Minnesota Chippewa Tribe.
Background
    Congress enacted the Nelson Act, dated January 14, 1889, 25 Stat. 
642, (Nelson Act) to establish a process ``for the complete cession and 
relinquishment in writing of all of [the Chippewa Indians in the State 
of Minnesota's] title and interest in and to all the reservations of 
said Indians in the State of Minnesota, except the White Earth and Red 
Lake Reservations. The Nelson Act provided that proceeds from the sale 
of lands of the Chippewa Indians in Minnesota were to be placed into a 
fund within the Treasury for a period of 50 years, with annual payments 
of interest made to individual Chippewa Indians. Section 7 of the 
Nelson Act provided that, after the expiration of 50 years, ``the said 
permanent fund shall be divided and paid to all of the said Chippewa 
Indians and their issue then living, in cash, in equal shares[.]'' 
Those funds were to be distributed in equal shares, without regard to 
which reservation lands they were tied.
    Following the 50-year period contemplated by the Nelson Act, there 
were no remaining funds to distribute in equal shares to the individual 
Chippewa Indians in Minnesota.
    The Minnesota Chippewa Tribe was established in 1934, pursuant to 
the Indian Reorganization Act. The Secretary approved the Tribe's 
constitution in 1936. Under that Constitution, the Minnesota Chippewa 
Tribe consists of six member bands, on six different reservations: Bois 
Fort, Fond du Lac, Grand Portage, Leech Lake, Mille Lacs and White 
Earth. Each Band has two representatives on the Tribal Executive 
Committee (TEC), which is the governing body for the entire Minnesota 
Chippewa Tribe.
    On January 22, 1948, the Minnesota Chippewa Tribe, representing all 
Chippewa bands in Minnesota except the Red Lake Band, filed a claim 
before the Indian Claims Commission in Docket No. 19 for an accounting 
of all funds received and expended pursuant to the Nelson Act, On 
August 2, 1951, the Minnesota Chippewa Tribe, representing all Chippewa 
Bands in Minnesota except the Red Lake Band, filed a number of claims 
before the Indian Claims Commission in Docket No. 188 for an accounting 
of the Government's obligations to each of the member bands of the 
Tribe under various statutes and treaties that are not covered by the 
Nelson Act. The Department understands that the expenses for 
prosecuting the Minnesota Chippewa Tribe's claims in Docket Nos. 19 and 
188 were shared equally by the six Bands.
    The primary claims asserted by the Minnesota Chippewa Tribe in 
Docket Nos. 19 and 188 were that the proceeds from the sale of land and 
timber on the six reservations pursuant under the Nelson Act were 
misspent, and that the Tribe's land and timber were sold at less than 
full-value.
    On July 1, 1998, the TEC enacted Resolution 01-99, which approved 
the settlement of the claims for a sum of $20 million. The vote was 6 
in favor of adopting Resolution 01-99 and 3 against. The United States 
Court of Federal Claims accepted the TEC's decision, and awarded $20 
million to the Minnesota Chippewa Tribe in May 1999, in Docket Nos. 19 
and 188. The court specifically stated ``[t]he Tribal Executive 
Committee has the constitutional authority to enter into the proposed 
settlement on behalf of the Minnesota Chippewa Tribe.'' The funds were 
transferred to the Department on June 22, 1999 and have been held in 
trust since.
    The Indian Tribal Judgment Funds Act (Act) of October 19, 1973, 87 
Stat. 466, 25 U.S.C.  1401 et seq., as amended, requires the Secretary 
of the Interior to submit to the Congress a plan for the use or 
distribution of funds to an Indian tribe. Under subsections 2(c) and 
(d) of the Act, should the Secretary determine that circumstances do 
not permit for the preparation and submission of a plan as provided 
under the Act and the Secretary cannot obtain the consent from the 
tribal governing body concerning the division of the judgment funds 
within 180 days after the appropriation of the funds for the award, the 
Secretary is required to submit to the Congress proposed legislation to 
authorize use or distribution of such funds.
    Pursuant to the Act, the Acting Deputy Commissioner of Indian 
Affairs issued a Results of Research Report on the Judgment in Favor of 
the Minnesota Chippewa Tribe, et al., v. United States, Dockets 19 and 
188 (Report) on June 6, 2001. The Report recommended that 35 percent of 
the funds should be distributed to each of the six Minnesota Chippewa 
Bands (Bands) in proportion to their losses and 65 percent should be 
distributed to each of the Bands in proportion to their current tribal 
enrollment.
    Also pursuant to the Act, in April of 2007, the Department 
submitted a legislative proposal to the Speaker of the House of 
Representatives and to the President of the Senate. The Minnesota 
Chippewa Tribe expressed opposition to both the 2001 and the 2007 
distribution plans, for varying reasons.
    The Department's 2007 proposal was introduced in the 110th Congress 
by Congressman Collin Peterson on May 14, 2007 as H.R. 2306. H.R. 2306 
provided that the fund should be allocated pro rata between the six 
Minnesota Chippewa Bands (Bands) based upon the number of tribal 
members currently enrolled within each of the Bands. \1\ The House 
Natural Resources Committee held a hearing on the bill, but no further 
action was taken on H.R. 2306. \2\
---------------------------------------------------------------------------
    \1\ By letter dated May 22, 2008, then-Assistant Secretary of 
Indian Affairs, Carl Artman, rescinded the June 6, 2001 Results of 
Research Report which forms the basis for H.R. 2306. By letter dated 
May 30, 2008, Legislative Counsel for the Department clarified that Mr. 
Artman's letter ``does not reflect the views of the Department of the 
Interior or the Administration on this issue.''
    \2\ U.S.C.  1405 states ``[t]he plan prepared by the Secretary 
shall become effective, and he shall take immediate action to implement 
the plan for the use or distribution of such judgment funds, at the end 
of the sixty-day period (excluding days on which either the House of 
Representatives or the Senate is not in session because of an 
adjournment of more than three calendar days to a day certain) 
beginning on the day such plan is submitted to the Congress, unless 
during such sixty-day period a joint resolution is enacted disapproving 
such plans.'' The Department could not find a joint resolution from 
Congress disapproving the plan.
---------------------------------------------------------------------------
    On October 1, 2009, the TEC passed Resolution 146-09, by a vote of 
10 in favor and 2 against, to distribute the judgment funds. S. 1739 
incorporates many of the provisions in the Tribal Resolution 146-09.
S. 1739
    Section 4 of S. 1739 provides that the Secretary is to reimburse 
the Minnesota Chippewa Tribe for attorneys' fees, and litigation 
expenses.
    Section 5 of the bill provides the Minnesota Chippewa Tribe with 90 
days to submit an updated membership roll for each Band of the Tribe to 
include the names of all enrolled members of that Band living on the 
date of enactment of the Act.
    After the attorneys' fees and litigation expenses have been 
disbursed and the Secretary has received the updated membership rolls, 
Section 5 directs the Secretary to deposit a ``per capita account'' of 
$300 for each member enrolled within each Band. Any remaining funds are 
to be deposited in a separate account and divided equally among the 
Bands. After the Secretary deposits the available funds into the ``per 
capita account,'' a Band may withdraw all or part of the monies in its 
account. All funds in that account shall be used for the purposes of 
distributing one $300 payment to each enrolled member of the Band.
    Each Band may distribute an additional $300 to the parents or legal 
guardians for each dependent Band member instead of distributing $300 
payments to the Band members themselves, or deposit into a trust 
account the $300 payments of each dependent Band member for the benefit 
of such dependent Band members to be distributed under the terms of 
said trust.
    Section 5(d) addresses the distribution of unclaimed payments. This 
section provides that one year after the distribution all unclaimed 
payments for the Tribe to be returned to the Secretary who shall divide 
the funds equally among the Bands.
    Lastly, Section 5(e) provides that, the Secretary shall not retain 
liability for the expenditure or investment of the monies after they 
are withdrawn by the Bands.
Department's position on S. 1739
    S. 1739 raises a unique and complex question involving the United 
States' respect for the sovereignty of tribal governments. The 
Minnesota Chippewa Tribe is a sovereign government, formed in 1936 
under the Indian Reorganization Act, and the TEC is the governing body 
of the Tribe. The TEC is comprised of twelve members, two from each of 
the six constituent Bands. Each constituent Band, however, also 
functions as a distinct sovereign government.
    On October 1, 2009, the TEC passed Resolution 146-09, by a vote of 
10 in favor and 2 against, to distribute the judgment funds in 
accordance to the formula set forth in S. 1739. The Department 
understands that disagreements among the Minnesota Chippewa Tribe's 
constituent bands, and between the Department and the Tribe, have 
prevented the distribution of the settlement funds for a number of 
years. The Department also understands that the Leech Lake Band opposes 
the distribution formula set out in S. 1739. Leech Lake has 
consistently supported the view that the distribution should be based 
upon total damages suffered by each band. The Department appreciates 
the concerns of Leech Lake, with whom it has a government-to-government 
relationship, and would prefer a unanimous agreement among the six 
bands of the Minnesota Chippewa Tribe regarding the best method to 
distribute the settlement funds.
    Nevertheless, the recognized governing body of the Minnesota 
Chippewa Tribe has voted 10-2 in favor of the distribution formula set 
forth in S.1739. Out of respect for the decision of the Minnesota 
Chippewa Tribe, and in light of the need to distribute the settlement 
funds in an equitable and expeditious manner, the Department supports 
S. 1739.
    The Nelson Act originally contemplated a common-fund for the 
benefit of individual Chippewa Indians of Minnesota, which would have 
been distributed to individuals on a per capita basis. S. 1739 differs 
from previous plans to distribute the settlement funds, and reflects 
the original intent of Congress to distribute the common proceeds to 
individuals on a per capita basis.
    The Minnesota Chippewa Tribe filed Docket Nos. 19 and 188 for the 
common benefit of all its constituent Bands and members. All six bands 
equally shared the expense and risk of prosecuting the cases. S. 1739 
also reflects the equal risk shared by the constituent bands when the 
Minnesota Chippewa Tribe initiated its claim more than 60 years ago.
    The TEC's 1998 vote to settle the cases for $20 million was not 
unanimous, as three members voted against the proposed settlement. But 
for the TEC's vote to settle the case, Dockets Nos. 19 and 188 could 
still be in litigation. The TEC's settlement vote, however, was 
respected by all Bands and the federal court, which stated ``[t]he 
Tribal Executive Committee has the constitutional authority to enter 
into the proposed settlement on behalf of the Minnesota Chippewa 
Tribe.''
    Once again, the Department would prefer that any distribution plan 
have the unanimous support of all of the Minnesota Chippewa Tribe's 
constituent bands. Should the Committee, and the sponsors of S. 1739, 
wish to consider amendments to the bill in an effort to gain the 
unanimous support of the Minnesota Chippewa Tribe, the Department is 
willing to participate in that effort.
    Nevertheless, the 1999 settlement itself was not reached with the 
unanimous consent of the Minnesota Chippewa Tribe's constituent bands, 
and the Department views S. 1739 as the most equitable and expeditious 
means to distribute the funds agreed upon in that settlement, and to 
provide a small measure of justice to the citizens of the Minnesota 
Chippewa Tribe.
    Mr. Chairman, this concludes my statement and I will be happy to 
answer any questions you may have.
                                 ______
                                 
Prepared Statement of Marge Anderson, Chief Executive, Mille Lacs Band 
                           of Ojibwe Indians

    Mr. Chairman, Members of the Committee, I am Marge Anderson, Chief 
Executive of the Mille Lacs Band of Ojibwe Indians, located in east 
central Minnesota. Thank you for the opportunity to submit testimony to 
your Committee.
    I am here today on behalf of the Mille Lacs Band of Ojibwe 
regarding the distribution of a judgment awarded to the Minnesota 
Chippewa Tribe in Docket Nos. 19 and 188 in the United States Court of 
Federal Claims in 1999. After over twelve years, it is time these 
monies went to the people who were harmed. The Tribe has voted to 
distribute the judgment, and I support the Tribe's sovereign authority 
and property right to determine the distribution of the judgment 
awarded to the Tribe. The Tribe's determination is reflected in S. 
1739, a bill sponsored by our Senators, Al Franken and Amy Klobuchar.
                  the mille lacs band supports s. 1739
The Minnesota Chippewa Tribe
    The Mille Lacs Band of Ojibwe is one of the six constituent bands 
which comprise the Minnesota Chippewa Tribe. Each of the constituent 
bands is, in its own right, a distinct sovereign government. This fact 
is reflected in the bands' Self-Governance Compacts with the United 
States Department of the Interior and the Department of Health and 
Human Services.
    However, the Minnesota Chippewa Tribe is, itself, also a sovereign 
entity. It was formed in 1936 under the Indian Reorganization Act, and 
its constitution was approved by the Secretary of the Interior. Under 
the Tribe's revised constitution, approved by the Secretary in 1964, 
the governing body of the Tribe is the Tribal Executive Committee 
(TEC). Each constituent band has equal representation on the TEC, with 
two seats each. The constitution authorizes the TEC to act by majority 
vote.
The Judgment Fund
    The Minnesota Chippewa Tribe was the only plaintiff in Docket Nos. 
19 and 188 before the Indian Claims Commission. After the Indian Claims 
Commission ceased to exist, the Tribe's claims in these dockets were 
transferred to the United States Court of Federal Claims, where the 
Tribe remained the only plaintiff in the case. The Tribe ultimately 
resolved its claims by entering into a settlement agreement with the 
United States. The Tribe and the United States were the only parties to 
the settlement agreement.
    It is important to note that the many decisions to undertake, 
finance and prosecute the litigation, and to negotiate, reach and 
approve the settlement agreement, were all made by the TEC on behalf of 
the Tribe. It is also important to note that the Court specifically 
recognized and affirmed the TEC's constitutional authority to act on 
behalf of the Tribe before approving the settlement agreement.
    This is confirmed by the key steps leading to entry of the final 
judgment in the case. First, on July 1, 1998, the TEC enacted 
Resolution 01-99, which approved the negotiated settlement of the 
Tribe's claims. The vote was 6 to 3, with 10 members present.
    Second, on May 21, 1999, the Tribe and the United States filed a 
Joint Motion and Stipulation for Entry of Final Judgment in the Court 
of Federal Claims. The stipulation called for the Court to enter 
judgment in the amount of $20,000,000 ``in favor of plaintiff Minnesota 
Chippewa Tribe.'' The parties submitted the TEC resolution, which 
reflected the 6 to 3 vote, to the Court in support of their motion.
    Third, the Court found that ``[t]he Tribal Executive Committee has 
the constitutional authority to enter into the proposed settlement on 
behalf of the Minnesota Chippewa Tribe,'' and that the TEC resolution 
approving the settlement (along with the signature of the Tribe's 
attorney on the stipulation) was ``appropriate and sufficient evidence 
of acceptance by the Tribe of the settlement.''
    Fourth, on May 26, 1999, the Court approved the settlement and 
directed the Clerk to enter judgment ``pursuant to the [parties'] 
stipulation.'' Judgment was entered for ``plaintiff,'' the Minnesota 
Chippewa Tribe.
    Finally, in accordance with the Court's judgment, $20,000,000 was 
deposited into a trust fund account, creating the judgment fund. Under 
federal law, the sole beneficiary of the judgment fund is the Minnesota 
Chippewa Tribe.
The Tribe's Decision
    Under the Tribe's constitution, the TEC is authorized to make 
decisions to administer, expend and apportion funds within the control 
of the Tribe. The members of the TEC--that is, the leaders of the six 
sovereign tribes that comprise the Minnesota Chippewa Tribe--have 
devoted thousands of hours and countless tribal resources to come up 
with a plan for the distribution of the Tribe's judgment fund. We know 
the facts, the history, the legal theories and the injustices and the 
harms done to our people that are the basis of our claims. We lived 
through the litigation, undertook the negotiations, and finally 
embraced a settlement. We are, like you, elected by our people. And 
daily we are asked to make decisions, face very real, and sometimes 
life or death, problems and needs that stagger human imagination and 
certainly tribal resources. This is not a decision we took lightly or 
made in haste.
    On October 1, 2009, the TEC enacted Resolution No. 146-09, which 
approved a plan to distribute the Tribe's judgment funds and requested 
Congress to authorize the distribution in the manner described. The 
resolution was approved by five of the six bands, and reflects the 
carefully considered and legally binding decision of the Tribe. S. 1739 
would authorize the distribution of the Tribe's judgment fund in 
accordance with the Tribe's decision.
Need for Legislation
    The Judgment Fund Distribution Act of 1973 requires the Secretary 
of the Interior to submit a proposed judgment distribution plan to 
Congress no later than one year after the date that funds are 
appropriated to satisfy an Indian Claims Commission judgment. The 
Secretary may obtain an automatic six-month extension to this deadline. 
If a proposed distribution plan is not submitted within the deadline, 
the funds may only be distributed through the enactment of legislation.
    The Secretary did not submit a proposed judgment distribution plan 
to Congress by the statutory deadline. Because the Secretary failed to 
do so, Congress must now enact a statute providing for the distribution 
of the judgment fund.
Reasons for Supporting S. 1739
    We have three principal reasons for supporting S. 1739:

        1.  Sovereignty and Property Rights. Senator Franken's bill 
        respects the sovereignty and property rights of the Minnesota 
        Chippewa Tribe.

           In 1998, when the Tribe was considering whether to approve 
        the settlement, some bands voted against it. However, under the 
        constitution of the Minnesota Chippewa Tribe, the Tribal 
        Executive Committee acts by majority vote and the settlement 
        was approved by majority vote of the TEC. Appropriately, the 
        vote was then accepted by the Department of Justice, the 
        Department of the Interior and the Court of Federal Claims. 
        Congress should give the same respect to the Tribe's decision 
        regarding the distribution of the judgment as the Government 
        gave to the Tribe's decision to settle the case.
           If the Minnesota Chippewa Tribe is truly a government, and 
        it is, its votes cannot be overruled on matters under its 
        jurisdiction, including the distribution of a fund awarded to 
        the Tribe. The defendant in a lawsuit cannot agree to settle a 
        case by paying a sum of money to the plaintiff and then, when 
        the plaintiff determines how the money is to be distributed, 
        disregard that decision and pay the money to someone else. This 
        would be a taking. Further, it would seemingly void the 
        settlement and open the government to further, compounded 
        litigation.
           In short, the Mille Lacs Band is simply requesting that the 
        Federal Government respect the decision of the Minnesota 
        Chippewa Tribe regarding the distribution of a judgment awarded 
        to the Tribe. If the government does not recognize the 
        sovereign authority and property rights here, it is a problem 
        not just for the Minnesota Chippewa Tribe and its six 
        constituent bands, but for all tribes across this country.

        2.  History. In the early 1980s, my predecessor, the Chief 
        Executive of the Mille Lacs Band, Arthur Gahbow, testified in 
        front of the House Interior and Insular Affairs Committee on 
        the distribution of another judgment obtained by the Minnesota 
        Chippewa Tribe in another Indian Claims Commission case. He was 
        told by the late Congressman Bruce Vento that he needed to go 
        back to Minnesota, and that the decision was up to the 
        Minnesota Chippewa Tribe, not the Mille Lacs Band.

           There are matters we undertake as a Band, such as the Mille 
        Lacs Band Self-Governance Compact with the Department of the 
        Interior, and there are matters we undertake as a Tribe, such 
        as the litigation at issue here. The claims were brought by the 
        Tribe, prosecuted by the Tribe and settled by the Tribe, and 
        the judgment was awarded to the Tribe. As Congressman Vento 
        said in the 1980s, the distribution of the award is up to the 
        Tribe.
           This august Committee and its leaders have traditionally 
        respected the sovereignty of Indian nations. In fact, it has 
        often single-handedly spoken truth to power in this city on the 
        issue of tribal sovereignty. Often this Committee has had to 
        explain tribal sovereignty, help employ it, and sometimes 
        celebrate it. We ask you to do so again, here, now.

        3.  Resolution. This is a moment in history when we can resolve 
        a longstanding conflict. If we do not do this today, this 
        decision will linger for a generation, or even longer. That 
        would not be responsible governance. We have spent countless 
        hours and diverted precious resources to finalizing a strong 
        distribution plan, embraced by five of the six bands and 
        supported by a huge majority of members. We have the common 
        goal of wanting to do good things on our reservations, and this 
        money from past harms can help. Today, we can and should move 
        forward.

Conclusion
    The bands of the Minnesota Chippewa Tribe work together on 
virtually all issues--law enforcement, child welfare, economic 
development, and more. We have a long, distinguished and unified 
history together. Ours is a story of survival. It is also a story of 
occasional differences. Here we resolved our differences with close to 
unanimity. We debated and discussed this matter at length. We discussed 
proposal after proposal. Ultimately, we voted. Five of six bands are in 
agreement. The Minnesota Chippewa Tribe has spoken as a sovereign, 
self-governing tribal nation.
    Our Tribe's funds, our peoples' funds, are languishing in a trust 
account in the Department of the Interior--the very agency responsible 
for the mismanagement that gave rise to our claims in the first place--
and we now need the assent of the Congress to access and use our own 
funds. It is an irony and little legacy of paternalism that should give 
way to sovereignty, self governance, self determination and respect.
    This august body has come to truly respect concepts like 
sovereignty, self determination and self governance; indeed, it has 
given them life and meaning in modern times. Now, here, after too much 
harm, too many tears, and too much time, wasted work and lost 
resources, please end this. After a century and half of losses, after 
six decades of litigation, and after a dozen years of our money in a 
dusty account at Interior, it is time. Now, here, accept the sovereign 
decision of our Tribe and give our people . . . our money.
    On behalf of the Mille Lacs Band, we thank our Senators and our two 
Congressmen for respecting tribal sovereignty. We thank this Committee 
and you, Mr. Chairman and Mr. Vice Chairman, for your long-standing 
respect for sovereignty. I respectfully request that the Committee do 
the right thing.
    The right thing to do is to respect the sovereignty of the Tribe 
and pass S. 1739.
    Mii gwetch.
                                 ______
                                 
Joint Prepared Statement of Hon. Kevin W. Leecy (Chairman) and David C. 
    Morrison, Sr. (Secretary-Treasurer), Bois Forte Band of Chippewa
    Chairman Akaka and Members of the Committee:

    We are, respectively, the Chairman and Secretary-Treasurer of the 
Bois Forte Band of Chippewa--one of the six constituent Bands of the 
Minnesota Chippewa Tribe (MCT). Pursuant to the Revised Constitution 
and Bylaws of the MCT, we sit on the Tribal Executive Committee (TEC). 
In addition, Mr. Morrison is the Treasurer of the MCT and has served in 
that position since 1992.
    On behalf of the Bois Forte Band, we submit this statement in 
support of S. 1739. Our support is based on the fact that the 
distribution of the Nelson Act proceeds reflected in S. 1739 is 
consistent with the law of the Minnesota Chippewa Tribe and we have 
both taken an oath to uphold that law.
    For us, the distribution of the funds awarded to the Minnesota 
Chippewa Tribe must be guided by the Constitution of the Tribe. The 
claims that led to the award were first brought in the name of the 
Minnesota Chippewa Tribe under the Constitution approved by the 
Secretary of the Interior on July 24, 1936. From the time of filing 
until the claims were settled in 1999, decisions about the filing and 
prosecution of the claims and, ultimately, settlement of the claims, 
were decisions made by the TEC.
    Each of the Bands has two representatives on the Tribal Executive 
Committee and under our Constitution, it is that body which has the 
power ``to apportion all funds within its control.'' Although each Band 
has the power to deal with funds over which it has exclusive ownership 
or control, there is no doubt that the Tribal Executive Committee has 
the sole power to make decisions about funds owned by the Tribe as a 
whole. The funds at issue here are just that: owned by the Tribe as a 
whole.
    Throughout the Tribe's history the Tribal Executive Committee has 
made decisions about how to apportion funds belonging to the Tribe as a 
whole. Following the Nelson Act land sales, in the late 1930's vacant 
and unsold lands on the six Reservations were restored to the ownership 
of the Minnesota Chippewa Tribe. Proceeds from those lands (primarily 
lease revenues and timber stumpage) on all of the Reservations were 
treated as Tribal funds and the Tribal Executive Committee used them to 
fund Tribal programs. In about 1980, the Tribal Executive Committee 
decided--by a majority vote--to allow the Reservations to retain the 
proceeds from leasing Tribal lands on their Reservation. Because of 
that vote by the Tribal Executive Committee, Leech Lake has been the 
beneficiary of more that $1 million annually for the last 30 years. 
Until 1995, the Tribe continued to use timber stumpage from its lands 
on all Reservations (primarily at Bois Forte) to fund its 
administrative programs. In 1995, the Tribal Executive Committee--again 
by majority vote--decided to apportion timber stumpage proceeds to the 
Reservation on which the timber was located. The point is: the Tribal 
Executive Committee decided how to allocate Tribal funds.
    When the Department of Justice was engaged in settlement 
discussions with the Tribe's attorneys in 1998, it wanted to be sure 
that a settlement with the Tribal Executive Committee would be 
constitutionally sufficient to bind the Minnesota Chippewa Tribe and 
its constituent Bands. There was never any doubt on the tribal side, 
but apparently the Department of Justice wanted reassurance and so it 
asked the Department of the Interior to address the issue. On January 
7, 1999, the Department's Associate Solicitor for Indian Affairs 
responded and concluded that ``the TEC has the constitutional authority 
to make a settlement agreement with the United States and to approve 
the settlement of these claims which relate to the disposition of 
tribal lands, interests in land or other tribal assets.'' If a decision 
of the TEC was sufficient to settle the claim, its decision on 
apportionment should also be binding. Under our Constitution, decisions 
made by a majority vote are the law. The Minnesota Chippewa Tribe is 
governed by the rule of law and that is why I support this legislation 
(S. 1739) that gives effect to the Tribe's law.
    As Treasurer of the MCT, Mr. Morrison has seen the financial 
problems that face the Tribe today as a result of its inability to 
access the funds awarded in 1999. The MCT now has an operating deficit 
that requires it to access a line of credit, but that would not be 
necessary if the Tribe is able to be reimbursed its expenses from the 
claims award. S. 1739 would allow the Tribe to return to financial 
stability.
    Bois Forte is aware of the fact that the Leech Lake Band opposes 
the distribution formula embodied in S. 1739 and persist in its 
position that because (as they assert) Leech Lake has incurred the most 
damages and should receive a share commensurate with those damages. 
However, neither the actual damages suffered nor the amounts misspent 
were specified in the Nelson Act settlement. For example, Bois Forte 
and the other Bands located far from the Consolidated Chippewa Agency 
could argue that they received a pittance of Nelson Act proceeds while 
Leech Lake received the lion's share simply because of proximity to the 
Agency. We have not argued about disproportionate benefit because the 
hard evidence was never developed in the Court. Similarly, we cannot 
agree with Leech Lake's claim of disproportionate harm for the same 
reason--the facts were never decided by the Court.
    The Bois Forte Band supports S. 1739 and urges the Committee to 
adopt it.
                                 ______
                                 
  Prepared Statement of Hon. Erma J. Vizenor, Chairwoman, White Earth 
                             Tribal Nation

    Thank you Mr. Chairman and Members of this important Committee. I 
am Erma Vizenor, the Chairwoman of the White Earth Tribal Nation. I 
submit this written testimony in strong support of S. 1739.
    We certainly appreciate your scheduling a hearing on this very 
important legislation for our people. In addition, I want to thank you 
and Members of the Committee for your efforts to support improvements 
to the life of all people in Indian Country. We appreciate your hard 
work and the improvements in many conditions we have seen due to your 
decisions. We saw firsthand the wide variety of efforts needed for this 
work when the Committee honored us by holding a Field Hearing at the 
White Earth Tribal Nation in the fall of 2010. We were very 
appreciative of being included in this important work.
    I want to take a moment now to thank the tireless efforts of 
Senator Al Franken and Senator Amy Klobuchar of Minnesota for moving 
this important legislation forward. In addition, I want to thank Cong. 
Collin Peterson and Cong. Chip Cravaack for sponsoring a companion bill 
in the U.S. House of Representatives. These four elected officials 
represent every Member of Congress and Senator who represent all six 
bands of the Minnesota Chippewa Tribe. I think this is very important 
to note since they have listened to all sides of this issue for many 
years, but decided it was important now to support the decision of the 
governing body of the MCT and sponsor the legislation that would 
reflect the majority vote for allocating these funds at this time.
    This is a critical piece of legislation to the people of the 
Minnesota Chippewa Tribe. We believe it is the beginning of a chance to 
heal many wounds that have been present from the issue of timber sales 
made from Indian reservations throughout Minnesota, particularly at the 
White Earth Tribal Nation. Did each of us in the settlement get 
everything we wanted in this compromise?--certainly not. The White 
Earth Tribal Nation has taken the greatest loss of funds considering 
that the White Earth Band comprises 50 percent of members of the MCT, 
and the Results of Research Report sponsored by the Department of 
Interior determined the best allocation was on a per capita basis by 
enrollee. We have negotiated and negotiated--we believe we have put 
forward as many as four or five different alternatives to divide these 
funds. But we also have listened to our fellow MCT Members, made 
compromises, and believe this allocation of funds is the fairest for 
all bands of the MCT and acceptable to the White Earth Tribal Nation.
    We are now thirteen years past the date of the settlement of this 
litigation. The $20 million has not been helping the people of the 
Minnesota Chippewa Tribe as was intended by the litigation, but has 
instead been earning 1 percent interest as we have continued to discuss 
the proper allocation of these funds. While there has been disagreement 
about the allocation of these funds, our people have gone hungry, lived 
in cold homes in the winter, and lost opportunities for education, 
jobs, and other opportunities that might have been available if these 
funds would have been a part of our budget. We do not want this to 
continue. We all have made significant compromises to arrive at this 
point.
    Mr. Chairman, I understand one of the six bands of the Minnesota 
Chippewa Tribe still does not support this bill. However, five bands do 
support this legislation, and I believe that represents a very strong 
reason to move forward with the bill very quickly. The present judgment 
fund was deposited in 1999. There is no reason to delay the 
distribution any longer.
    Thank you for your consideration.
        *Attachment retained in Committee files*
                                 ______
                                 
Prepared Statement of Charles Wilkinson, Distinguished Professor/Moses 
             Lasky Professor of Law, University of Colorado

    I express my appreciation to Chairman Akaka, Vice Chairman 
Barrasso, and members of the Committee for receiving this statement.
    I have been actively involved in Indian matters as a practicing 
lawyer and scholar since 1971. In the 1970s and early 1980s, while I 
was on the faculty of the University of Oregon Law School, I 
represented the Siletz Tribe in the passage of the Siletz Restoration 
Act of 1977 and the Siletz Reservation Act of 1980. My many articles 
and fourteen books include Federal Indian Law: Cases and Materials 
(with Getches, Williams, and Fletcher) (West; 6th ed., 2011); Felix S, 
Cohen's Handbook of Federal Indian Law (Managing Editor) (Michie Bobbs-
Merrill; 1982); American Indians, Time, and the Law: Native Societies 
in a Modern Constitutional Democracy (Yale; 1987); Messages From 
Frank's Landing: Salmon, Treaties, and the Indian Way (University of 
Washington Press; 2000); and Blood Struggle: The Rise of Modern Indian 
Nations (W.W. Norton (2005). My most recent book is a comprehensive 
history of the Siletz Tribe, The People Are Dancing Again: A History of 
the Siletz Tribe of Western Oregon (University of Washington Press; 
2010), in which I explored in depth the basic issues involved in Senate 
Bill 908.
    It is my understanding that a question has arisen as to whether the 
Grand Ronde Tribe, and perhaps other tribes, have a legal interest in 
the Siletz Reservation. I will address that issue here.
    The events of the mid-19th century in Western Oregon were 
tumultuous and enormously complicated, but the legal results that 
emerged from that era are straightforward insofar as Senate Bill 908 is 
concerned. The Federal Government moved more than 30 tribes and bands 
to the Siletz Reservation, established by Executive Order on November 
9, 1855; President Pierce took this action under authority granted to 
him by the Table Rock Treaty of September 10, 1853 and other Western 
Oregon treaties. Later, by Executive Order of June 30, 1857, President 
Buchanan proclaimed the Grand Ronde Reservation; he did this pursuant 
to authority granted to him by the Treaty with the Willamette Valley 
Tribes of January 22, 1855, and other Western Oregon treaties. The 
Federal Government moved Western Oregon Indians to that reservation 
also. All of this was haphazardly done. For many of the tribes and 
bands, some of their people went to the Siletz Reservation and some 
went to the Grand Ronde Reservation. In some cases, members of 
individual families ended up on one reservation with other family 
members on the other reservation.
    Over the years, the Federal Government felt an increasing need to 
facilitate ease of administration and create legal order out of the 
complex and often chaotic settlement of the two reservations. The 
Siletz Tribe and Grand Ronde Tribe each became known as a confederation 
of the tribes on its reservation, with the people on each reservation 
being members of the respective confederated tribes. Each confederated 
tribe was acknowledged to be a separate federally recognized tribe. 
Later, the BIA developed tribal rolls for each of the tribes. In the 
Western Oregon Termination Act, each tribe had its own separate roll. 
Then, a generation later, each tribe was restored by separate 
legislation with separate tribal rolls. Today the United States 
continues to recognize the Confederated Tribes of Siletz Indians and 
the Confederated Tribes of Grand Ronde as two separate tribes with 
separate rolls.
    This process of forcibly moving tribes from their homelands, 
placing several tribes on one reservation, and amalgamating individuals 
in one confederated tribe, in addition to being cruel, was 
ethnologically and politically arbitrary in terms of deviating from 
traditional tribal identities. Yet there is no question about Congress' 
broad constitutional authority to take such action. Similar historical 
progressions have led to other confederated tribes across the nation, 
especially in the Northwest.
    If passed, Senate Bill 908 would declare that future fee-to-trust 
applications by the Siletz Tribe for property within the boundaries of 
the original 1855 Siletz Reservation would be treated as on-reservation 
acquisitions. No other tribe has a legal interest in this kind of 
proposal, just as the Siletz Tribe would have no interest in a similar 
proposal made by another tribe.
    In my judgment, this bill is a most worthy initiative. The land 
within the magnificent 1855 Siletz Reservation was taken from the tribe 
illegally or under intense coercion. Recognizing the 1855 boundaries in 
this fashion provides some measure of long-due justice.

Prepared Statement of Hon. Donald L. Fry, Chairman, Confederated Tribes 
                           of the Lower Rogue

    Chairman Akaka, Co-Chairman Barrasso, Members of the Committee;
    I am Donald L. Fry. I am an enrolled member and Chairman of the 
Confederated Tribes of the Lower Rogue. I am honored to represent the 
Chetco and Tututni peoples.
    We have concerns with S. 908 and how it will impact our restoration 
efforts.
    The members of the Confederated Tribes of the Lower Rogue are the 
descendants of the Chetco and Tututni Indians who resided in 
southwestern Oregon since time immemorial. After disease and violent 
clashes with invading settlers decimated SW Oregon's tribes, the 
surviving Indians were forcibly removed north to the ``Coast 
Reservation'' in the mid-1850s. Some Chetco and Tututni hid to avoid to 
the bounty hunters who tracked us, or escaped the reservation and came 
back when it was safe to do so. These resilient Indians--the ancestors 
of our Tribe's current members--remained in our traditional homelands.
    The Federal Government has acknowledged our tribal existence since 
at least the 1850s, as evidenced by treaties signed with our ancestors 
in 1851 and 1855.
    In 1954, the Federal Government terminated its relationship with 
the Chetco and Tututni, along with almost sixty other Western Oregon 
tribes and bands. By the 1970s, tribal termination had been discredited 
and was no longer federal policy, and between 1977 and 1989, Congress 
restored federal recognition to six terminated Oregon tribes: 
Confederated Tribes of Siletz; Confederated Tribes of the Grand Ronde 
Community of Oregon; Klamath Tribes; Cow Creek Band of Umpqua Indians; 
Confederated Tribes of the Coos, Lower Umpqua and Siuslaw Indians; and 
Coquille Tribe.
    We have been pursuing our goal of restoring federal recognition of 
our Tribe for over sixteen years. While we struggle to obtain the 
political support needed to introduce a restoration bill, the 
Confederated Tribes of the Lower Rogue are organized as a non-profit 
501(c)(3) organization and work tirelessly to preserve our history and 
culture.
    For these reasons, we urge the Committee not to proceed with 
further consideration of S. 908 until the issues affecting our concerns 
for clarifying our Tribe's Federal status can be identified and 
resolved.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
